CERTIFICATE OF COMPLIANCE WITH RULE 33.2
I, Marisa L. D. Conroy, counsel for petitioner, certify that this document is
prepared in accordance with the requirements of Supreme Court Rule 33.2, and
contains 1870 words, exclusive of the table of contents, table of authorities, signature
lines, and certificates of service and compliance, as counted by the word count
program of Corel Wordperfect.
I also certify that this brief complies with the typeface requirements because
the brief is prepared in a proportionally spaced typeface using 13-point Century 725
BT font.
I declare under penalty of perjury that the foregoing is true and correct.
Executed July 21, 2021 at Encinitas, California.

s/Marisa L.D. Conroy
By: Marisa L. D. Conroy
LAW OFFICE OF MARISA L.D. CONROY
P.O. Box 232726
Encinitas, CA 92023
(858) 449-8375
Counsel for Petitioner
Carlos Elias Cruz-Bermudez

-10-

